  AUDIT OF THE SAN FRANCISCO
   PRIVATE INDUSTRY COUNCIL
H-1B TECHNICAL SKILLS TRAINING
  GRANT NUMBER AH-10855-00-60
     AUGUST 1, 2000 THROUGH
       DECEMBER 31, 2001




                 U.S. DEPARTMENT OF LABOR
                 OFFICE OF INSPECTOR GENERAL

                 REPORT NO: 02-02-213-03-390
                 DATE:      September 30, 2002
                                            TABLE OF CONTENTS


ACRONYMS ....................................................................................................................................i

EXECUTIVE SUMMARY .............................................................................................................1

INTRODUCTION

          BACKGROUND .................................................................................................................3

          AUDIT OBJECTIVES .........................................................................................................4

          AUDIT SCOPE AND METHODOLOGY..........................................................................4

FINDINGS AND RECOMMENDATIONS

          I.     PROGRAM IMPLEMENTATION..............................................................................6

          II. PROGRAM OUTCOMES ...........................................................................................7

          III. REPORTED OUTLAYS ............................................................................................11

          IV. OTHER MATTERS ...................................................................................................13

APPENDIX

          SFPIC’S RESPONSE TO DRAFT REPORT....................................................................14
                        ACRONYMS


ACWIA   American Competitiveness and Workforce Improvement Act


BAVC    Bay Area Video Coalition


CFR     Code of Federal Regulations


FSR     Financial Status Report


OMB     Office of Management and Budget


SFPIC   San Francisco Private Industry Council


USDOL   U.S. Department of Labor


WIA     Workforce Investment Act




                                  - i-
                             EXECUTIVE SUMMARY


The U.S. Department of Labor (USDOL), Office of Inspector General, conducted an audit of the
San Francisco Private Industry Council’s (SFPIC) H-1B technical skills training grant for the
period August 1, 2000 through December 31, 2001. The overall audit objective was to evaluate
if SFPIC was meeting the intent of the H-1B Technical Skills Training Program and the
requirements of its grant. The subobjectives were to determine if:

       •   The project had been implemented as stated in the grant.

       •   Program outcomes were measured, achieved, and reported.

       •   Reported costs were reasonable, allocable, and allowable in accordance with
           applicable Federal regulations, and Office of Management and Budget (OMB)
           Circular A-122, Cost Principles for Non-Profit Organizations.

The H-1B Technical Skills Training Program was designed to help U.S. workers acquire the
technical skills for occupations that are in demand and being filled by foreign workers holding
H-1B visas. USDOL awarded SFPIC $3,000,000 for the period August 1, 2000 through
July 31, 2002, to train and place up to 250 participants in digital media skill occupations.

AUDIT R ESULTS

As of December 31, 2001, SFPIC had implemented a sustainable training project that was
consistent with grant requirements and served the target population. Reported costs totaled
$1,885,057. However, SFPIC had not met planned placement outcomes and we question
$915,985, or 49 percent of reported costs, that were not reasonable, allocable, and allowable.

   •   While most training outcomes were achieved, planned placement outcomes did not occur
       due to decreased demand for digital media skills in the internet industry. The grant
       required SFPIC to report the number of participants placed into employment
       (placements), their average hourly wage (placement wages), and the number of
       participants remaining employed for at least 8 months after being hired (retention).
       SFPIC did not adequately measure retention outcomes. Also, SFPIC did not report
       placement wages or retention achievements to USDOL.

                                                                         Rate of
               Program Outcome          Planned         Reported        Success
               Placements                 205               30            15 %
               Placement Wages          $22/hour         $15/hour         68 %
               Retention                  200          Not reported     Unknown




                                               -1-
   •   We question $915,985, or 49 percent of reported costs of $1,885,057, because amounts
       claimed were not based on actual costs. Further, the ma tching requirement of 25 percent
       was not being met as of December 31, 2001. Future costs may be questioned if the
       matching requirement is not met.

SFPIC’S RESPONSE

On September 11, 2002, SFPIC’s President responded to our draft report. She stated that she
agreed that SFPIC had implemented a sustainable project consistent with the grant requirements
but had not met planned placement outcomes as of December 31, 2001. She also provided
additional documentation related to expenditures questioned in the draft report.

OIG’S COMMENTS

The materials enclosed with SFPIC’s response did not support costs of $915,985 and presented
conflicting information from what had been obtained during the course of the audit.

Excerpts of SFPIC’s response to the draft report have been incorporated into appropriate sections
of the report. The response is included in its entirety as an Appendix.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training recover questioned
costs of $915,985 and ensure that the SFPIC achieves planned placement outcomes, measures
job retention, and fully reports program outcomes.




                                              -2-
                                            INTRODUCTION


                  The American Competitiveness and Workforce Improvement Act of 1998
    BACKGROUND    (ACWIA) was enacted to help employed and unemployed U.S. workers
                  acquire technical skills for occupations that are in demand and being filled by
H-1B visa holders. The H-1B visa program allows employers to temporarily employ foreign
workers on a nonimmigrant basis to work in specialized jobs not filled by U.S. workers (8 U.S.C.
1101(a)(15)(H)(i)(b)). A $1,000 user fee is imposed on employers for H-1B applications.
ACWIA provides that over half of that fee is used to finance the H-1B Technical Skills Training
Program administered by USDOL.

H-1B technical skills training grants are demonstration grants awarded under the authority of
Title IV-D of the Job Training Partnership Act and Title I-D of the Workforce Investment Act
(WIA). As of March 31, 2002, USDOL had conducted 4 rounds of grant competition and
awarded 60 grants totaling approximately $143 million.

                           Grant       Solicitation    Number      Award
                           Round            Date      of Grants    Amount
                             1        August 16, 1999      9     $12,383,995
                             2        March 29, 2000      12     $29,166,757
                             3        August 1, 2000      22     $54,000,000
                             4        April 13, 2001      17     $47,559,761 1
                                           Total          60    $143,110,513


In the second round, the SFPIC was awarded $3,000,000 under Grant Number AH-10855-00-60,
for the period August 1, 2000 through July 31, 2002. SFPIC proposed and agreed to train 250
participants in digital media including web design, e-commerce, web programming, HTML,
animation, systems administration and technical support. SFPIC administered the project and
contracted with Goodwill Industries and Bay Area Video Coalition (BAVC) to provide training
and participant services. Goodwill provides entry level skills through its technology literacy and
introduction to digital media training to prepare participants for BAVC advanced training.
BAVC provides intermediate and advanced level skills through intensive digital media training.

Incorporated in 1979, the SFPIC is a not-for-profit corporation under section 501(c)(3) of the
Internal Revenue Code. SFPIC provides employment, training and research services to
employers and job seekers. Under the direction of the Local Workforce Investment Board,
SFPIC administers all WIA funds for San Francisco, California.




1
    As of March 31, 2002, Round 4 was still an open solicitation with an additional $87 million available for award.


                                                          -3-
                         The overall audit objective was to evaluate if SFPIC was meeting the
 AUDIT OBJECTIVES        intent of the H-1B Technical Skills Training Program and the
                         requirements of its grant. The subobjectives were to determine if:

   •   The project had been implemented as stated in the grant.

   •   Program outcomes were measured, achieved, and reported.

   •   Reported costs were reasonable, allocable, and allowable in accordance with
       applicable Federal regulations, and OMB Circular A-122, Cost Principles for
       Non-Profit Organizations.

                        The audit period was from August 1, 2000 through December 31, 2001.
 AUDIT SCOPE AND        In performing this audit, we reviewed the Solicitation for Grant
  M ETHODOLOGY          Applications and the grant agreement to determine the requirements and
                        performance measures of the grant. We interviewed staff of SFPIC,
Goodwill Industries and BAVC; examined participant records, and reviewed other materials
related to project implementation. We made onsite visits to Goodwill Industries and BAVC.

We audited cumulative net outlays of $1,855,057 reported on the Financial Status Report (FSR)
for the period August 1, 2000 through December 31, 2001. Net outlays reflected the Federal
share of cumulative net outlays since no matching funds or in-kind costs were reported for the
period. We traced expenditures to general ledgers and examined supporting documentation
including vouchers and invoices. Judgmental sampling was used to test individual account
transactions and balances. We tested outlays of $1,120,469 or 60 percent of reported Federal
outlays.

We considered SFPIC’s internal controls over the H-1B grant project by obtaining an
understanding of the grantee’s internal controls, determining whether these internal controls had
been placed in operation, assessing control risk, and performing tests of controls. Our purpose
was to determine the nature and extent of testing needed to satisfy our audit objectives, not to
provide assurances on the internal controls; therefore, we do not provide any such assurances.

Compliance with laws, regulations, and grant agreement provisions is the responsibility of
SFPIC. We performed tests of compliance with certain provisions of laws, regulations, and the
grant to evaluate if SFPIC was meeting the requirements of the grant and that reported costs were
reasonable, allocable and allowable in accordance with applicable provisions of Federal
regulations and OMB circulars. However, our objective was not to provide an opinion on overall
compliance with Federal regulations and OMB circulars, and, accordingly, we do not express
such an opinion. We evaluated allowability of claimed costs using relevant criteria includ ing:
ACWIA; 29 CFR 95, Grants and Agreements with Institutions of Higher Education, Hospitals,
and Other Non-Profit Organizations; OMB Circular A-122, Cost Principles for Non-Profit
Organizations; and the requirements of the grant. We examined compliance with grant
requirements and program outcomes goals using the Solicitation for Grant Applications and the
grant agreement.




                                               -4-
We conducted our audit in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests, as we considered necessary to
satisfy the objectives of the audit. We conducted fieldwork from April 8, 2002 through
April 18, 2002, at SFPIC located in San Francisco, California. We visited Goodwill Industries in
San Francisco on April 12, 2002, and BAVC in San Francisco on April 15 and 16, 2002. We
held an exit conference with SFPIC on August 2, 2002.




                                              -5-
                  FINDINGS AND RECOMMENDATIONS


I. PROGRAM IMPLEMENTATION

The Solicitation for Grant Applications states:

      “The primary emphasis of the ACWIA technical skills training will be to focus on
       employed and unemployed workers who can be trained and placed directly in the
       highly skilled H-1B occupations. . . .

      “Although the primary focus of these awards is technical skill training,
       Employment and Training Administration intends that regional partnerships
       sustain themselves over the long term – well after the federal [sic] resources from
       this initiative have been exhausted.”

As of December 31, 2001, SFPIC had implemented a sustainable training project that was
consistent with grant requirements and served the target population.

                  The project integrated training at Goodwill Industries and BAVC to enable
  TRAINING        program participants to progress from entry-level to intermediate/adva nced-
  PROVIDED        level digital media skills. Goodwill provided 8 weeks of training in
                  technology literacy. BAVC provided 16 weeks of advanced digital media
training. Both contractors provided recruitment, aptitude and interest assessment, career
planning and guidance, placement services and retention followup. Also, Goodwill provided
support services and counseling to all project participants.

The target population was low income and minority populations. As of December 31, 2001, 47
percent (82 out of 176) of program participants were identified as low income and 57 percent
(100 out of 176) were minorities.

                      The grant relied upon the resources of the partner organizations to ensure
     PROJECT          the training continued after the grant. SFPIC, Goodwill and BAVC staff
 SUSTAINABILITY       indicated their organizations believed the project was working well and
                      were seeking other funding to continue the training.

Without other funding, both Goodwill and BAVC could continue training by serving fewer
participants. Goodwill could incorporate the training curriculum in an existing program funded
by undesignated donations. BAVC operates a smaller program funded by the Mayor’s Office of
Community Development that was the model for the grant project and provides the same skills.




                                                  -6-
II. PROGRAM OUTCOMES

SFPIC did not fully accomplish planned program outcomes, measure retention or fully report
program outcomes. While most training outcomes were achieved, planned placement outcomes
did not occur due to decreased demand for digital media skills in the internet industry. SFPIC
did not adequately measure retention outcomes. Also, SFPIC did not report placement wages or
retention achievements to USDOL.

                     The grant established planned program outcomes for participants trained,
    O UTCOME         placements and placement wage, and retention. The grant required SFPIC
  ACHIEVEMENT to report the numbers of participants who obtained employment
                     (placements) and the average starting hourly wage (placement wage). The
grant also required SFPIC to report on the number of participants who remained employed 8
months after being hired (retention). As the table below shows, SFPIC was not fully meeting its
planned program outcomes as of December 31, 2001.

                                                                        Rate of
               Program Outcome           Planned        Reported        Success
               Participants Trained         250           104             42 %
               Placements                  205               30           15 %
               Placement Wage              $22/hour      $15/hour         68 %
               Retention                   200         Not reported     Unknown


As of March 31, 2002, subsequent to the audit period, SFPIC had significantly improved
outcome achievement. However to meet grant goals, SFPIC requested a grant extension and had
arranged with Goodwill and BAVC to continue training, placement, and followup services after
the initial grant period.

In its response, SFPIC stated:

       All of the planned placement outcomes had not been met by December 31st of
       2000 and most of that was attributable to the sudden demise of certain Internet-
       related (or “dot-com”) industries in the last half of calendar year 2000 in San
       Francisco. . . . Since the audit review, the term of the grant has been extended
       from July 29, 2002 to February 28, 2003 without any additional funds. This
       extension provides an opportunity for some of those performance and reporting
       deficits to be remedied. . . .

Participants Trained

To meet its planned grant training outcomes, SFPIC established contractor goals so that at least
268 participants received training with 62 participants trained by both contractors. As of
December 31, 2001, SFPIC achieved 42 percent (104 of 250) of the planned program outcome.


                                              -7-
                                                                                             Rate of
                    Contractor Goals                       Planned2         Attained         Success
        Completed Goodwill Training                              100             57            57 %
        Completed BAVC Training                                  230             57            25 %
        Participants Enrolled in Both Training                   (62)          (10)           (16 %)
           Number of Participants Trained                        268           104

Subsequent to the audit, training outcomes significantly increased from 104 participants trained
as of December 31, 2001, to 205 participants trained as of March 31, 2002. However, SFPIC
cannot achieve its planned training outcome by the end of the grant because both contractors still
needed to enroll and train additional participants. Goodwill has sufficient time to accomplish its
training goals, but BAVC does not. As of the end of our onsite fieldwork on April 18, 2002,
BAVC still needed to recruit an additional 39 participants for training that lasts 4 months. Even
if BAVC succeeded in recruiting the needed participants, the participants would be unable to
complete training before the grant expired on July 31, 2002.

                                                   Completed         Needed to           Active in
                    Training                       by 3/31/02        Meet Goals          Training
          Goodwill Training                             83               17                 14
          BAVC Training                                149               81                 42
          Training by Both Contractors                 (27)             (15)                (9)
            Total Participants Trained                 205               83                 47

In its response, SFPIC stated that BAVC had completed training for all 250 participants as of
September 6, 2002, just a month past the original grant period.

Participant Placements

As of December 31, 2001, SFPIC had only achieved 15 percent (30 of 205) of its goal for
placements and 68 percent ($15 of $22 per hour) for placement wages, and may not achieve its
planned placement outcomes by the end of the grant.




2
  BAVC was to enroll 250 participants, including 62 Goodwill graduates. BAVC had a completion goal of 230
with between 42 and 62 participants expected to complete both Goodwill and BAVC training. Therefore, contractor
goals ensured that between 268 and 288 participants were to be trained, exceeding the grant goal of 250 trained.


                                                     -8-
                                                                                        Rate of
                                                              3
                 Placement Goals                   Planned            Attained          Success
              Goodwill Contract
               Placements                             38                  0                 0%
               Placement Wage                      $10/hour            $0/hour              0%
              BAVC Contract
               Placements                            185                 30               16 %
               Placement Wage                      $15/hour           $15/hour           100 %
              SFPIC Grant
               Placements                            205                30                 15 %
               Placement Wage                      $22/hour           $15/hour             68 %

Placement opportunities were affected by the recession in internet-related industries that were the
initial target for placements. Training was modified to focus on skills needed for e-commerce,
buying and selling merchandise over the internet, to expand placement opportunities to non-
internet related companies using e-commerce.

Moreover, SFPIC established placement wage goals which were less than the grant goal of $22
per hour. As shown above, Goodwill had a wage goal of $10 per hour and BAVC had a wage
goal of $15 per hour. As a result, SFPIC achieved only 68 percent of its projected program
outcomes even though BAVC achieved its goal. Overall, contractors will have to exceed their
wage goals by approximately 50 percent for SFPIC to attain its wage goal.

As of March 31, 2002, contractors reported significantly higher placement results that increased
SFPIC’s attainment of planned outcomes to 46 percent (94 of 205) for placements and 82 percent
($18 of $22 per hour) for placement wages. However, with just 3 months remaining in the
original 2-year grant period, SFPIC may not achieve grant goals since it had attained less than
half the planned placements.

In its response, SFPIC stated:

        . . . as of January 31 st of 2002, 65 (or 75%) of 87 job placements claimed by one
        of the two subgrantees . . . had experienced increases in their wages or salaries as
        a result of participation in the project. . . .

SFPIC’s response addressed wage gains which was not an outcome goal in the grant agreement,
but did not address the placement wage outcome goal of $22 per hour.




3
 Contractors were to place 223 participants, exceeding the grant goal of 205 placements. Contractor placement
wage goals of $14 per hour (we ighted average) were significantly less than the grant goal of $22 per hour.


                                                      -9-
                      The grant requires that SFPIC submit quarterly progress reports on project
  M EASUREMENT
                      performance. 29 CFR 95.51(d)(1) states that performance reports should
  AND R EPORTS
                      contain: “A comparison of actual accomplishments with the goals and
                      objectives established for the period . .. .”

SFPIC did not adequately measure and fully report program performance. Retention outcomes
were not adequately measured or reported on quarterly narrative reports to USDOL. Also,
placement wages were not reported to USDOL.

In its response, SFPIC stated that it has not collected retention and wage data, and does not plan
to do so for this grant. SFPIC contended:

       Neither retention nor pre- or post-program wage data on participants who have
       been placed in unsubsidized employment have ever been requested by either the
       grant agreement or the DOL/ETA. . . .

However, SFPIC included retention and placement wage as measures against which its training
program’s performance would be evaluated. These measures were included in the executed
grant agreement under Section G, Outcomes.

Measuring Retention

SFPIC required its contractors to follow up with participants quarterly, but did not establish
participant placement retention goals for its contractors or adequately monitor the contractors to
ensure retention followup occurred. BAVC placed 30 participants but did not perform any
followup contacts even though 40 percent of the participants were placed at BAVC. Because
retention was the only planned program outcome for which SFPIC did not establish contractor
goals, the importance of performing retention followup was not emphasized.

As of March 31, 2002, subsequent to our audit period, retention followup improved marginally.
SFPIC’s tracking system identified 46 participant placements where followup should have been
performed.

   •   Goodwill performed all required followup contacts for the two participants it placed.

   •   BAVC placed 44 participants but only performed follow up for 3 participants (7 percent).

Reporting Retention and Placement Wages

Retention and placement wage outcome achievements were not reported on quarterly narrative
reports to USDOL. SFPIC staff indicated that they requested, but did not receive, specific
direction from the grant officer’s technical representative on performance data requirements.
These outcomes are specified in the grant and should be reported to provide USDOL with a
complete picture of SFPIC’s grant achievements.




                                               - 10 -
RECOMMENDATION

We recommend the Assistant Secretary for Employment and Training ensures SFPIC
implements corrective measures that will achieve and properly measure and report program
outcomes as specified in the grant.

III. REPORTED OUTLAYS

On the FSR for the period ending December 31, 2001, SFPIC claimed cumulative Federal
outlays of $1,855,057, but did not report any matching funds or in-kind costs. We question costs
of $915,985 or 49 percent of the Federal outlays for payments to BAVC that were not
reasonable, supported, and allowable. Also, future costs may have to be questioned if the 25
percent matching requirement is not met.

                         OMB Circular A-122, Attachment A, Paragraph 2.g. states that to be
  BAVC - $915,985        allowable costs must be adequately documented.

SFPIC awarded BAVC a cost reimbursable contract that states:

       4.1. Conditions for Disbursement
       Subcontractor will be reimbursed by Contractor for all allowable and documented
       costs in amounts not exceeding the total amounts set forth in Statement of
       Work/Individual Referral Subcontract, upon timely submission of invoices to
       Contractor for performance of services hereunder.

We question costs of $915,985 paid to BAVC for computer lab usage because amounts charged
were not adequately documented and did not represent actual costs. Monthly charges to the
project were based on the contract budget allocated over the contract period.

Also, the contract budget was based on prices of commercial companies and does not reflect
actual projected costs for use of BAVC computer labs. BAVC set the contract budget using a
survey of hourly rates charged by commercial workstation providers such as Kinko’s.
Commercial pricing levels were set to include an element of profit and cover the total costs of
providing the services such as computers and software, staffing and supplies. However,
commercial prices do not reasonably estimate costs for BAVC computer labs because:

   •   The base value for equipment and software was not proven to be comparable between
       BAVC and commercial providers. BAVC received donated computer hardware and
       software from manufacturers, whereas commercial providers purchase theirs.

   •   Cost items such as staffing and supplies that were covered in commercial pricing were
       separate cost items under BAVC’s contract and billed separately.

   •   Commercial pricing includes an element of profit that is not allowable under the BAVC
       contract (4.1 Conditions for Disbursement).



                                              - 11 -
With its response, SFPIC enclosed additional documentation for lab fees and stated:

       The lab costs consist of direct equipment leasing, maintenance and repair costs, overhead
       costs, staff support and consultant costs essential to implementation of the program. As
       demonstrated in the enclosed materials, BAVC’s actual grant-related lab costs exceeded
       the amount charged to the grant by $5,393. . . .

SFPIC’s response provided materials for 3 of 17 months requested, and some of those materials
were not fully supported with backup documentation. Moreover, SFPIC provided conflicting
information from what had been obtained from both SFPIC and BAVC during the course of the
audit. For example, the response disclosed that lab fees included some instructors’ salaries
whereas materials obtained previously only contained salaries for lab maintenance and janitorial
services. Also, the H-1B program, Mayor’s Office program, and other projects used the lab, but
the Mayor’s Office and other projects were not charged for their fair share of lab costs.

SFPIC has not provided sufficient support for charging the grant $915,985 for BAVC lab costs.
These costs rema in questioned.

                      The grant agreement requires SFPIC to report program outlays on an
   M ATCHING          accrual basis (Special Condition #5) that includes expenses incurred and the
 REQUIREMENT          value of in-kind contributions applied.

29 CFR 95.23(a) requires:

      “(a)   All contributions, including cash and third party in-kind, shall be accepted
             as part of the recipient’s cost sharing or matching when such contributions
             meet all of the following criteria:

             "(1)   Are verifiable from the recipient’s records. . . .

             “(5)   Are not paid by the Federal Government under another award, except
                    where authorized by Federal statute to be used for cost sharing or
                    matching.”

The grant established a matching requirement of 25 percent on Federal outlays and prohibited the
use of Federal funds in satisfying the matching requirement. However, the 25 percent matching
requirement had not been met as of December 31, 2001. SFPIC has until the end of the grant
period to satisfy the 25 percent requirement or future grant costs may have to be questioned.

Matching funds were not reported on the FSR and were not verifiable from SFPIC records.
SFPIC did not report in-kind contributions on the FSR because it had not obtained the
information from BAVC. The matching requirement was to be met through cash donations
received by BAVC and used to offset training costs. SFPIC did not require BAVC to report
donations received and used for the program, and had not followed up with BAVC on the status
of matching funds. As a result, SFPIC could not determine the amount of third party
contributions obtained and used to offset program costs for inclusion in total outlays for the FSR.



                                                 - 12 -
Further, the grant agreement listed intended sources for the cash donations to satisfy the
matching requirement, including $300,000 from San Francisco Mayor’s Office of Community
Development. However, the $300,000 represents Federal funds from the U.S. Department of
Housing and Urban Development that may not be used to meet the matching requirement. As a
result, SFPIC will need to find additional matching funds to satisfy the matching requirement.

In its response, SFPIC indicated that it would document and report agreed upon matching costs
by the extended ending date of the grant.

We acknowledge that SFPIC has until the end of the grant to obtain, document and report on
matching funds, but the grantee needs to ensure that such matching funds are verifiable and
allowable. The grant stipulates that other Federal funds may not be used to meet the matching
requirement.

RECOMMENDATIONS

We recommend the Assistant Secretary for Employment and Training recovers questioned costs
of $915,985 and requires SFPIC to revise the FSR to reflect actual and documented costs.

We also recommend that the Assistant Secretary for Employment and Training ensures that
SFPIC complies with grant requirements related to matching funds.

IV.    OTHER MATTERS

                      29 CFR 95.45 states:
  CONTRACTS
 WITH PARTNERS


       Some form of cost or price analysis shall be made and documented in the
       procurement files in connection with every procurement action. . . . Cost analysis
       is the review and evaluation of each element of cost to determine reasonableness,
       allocability and allowability.

SFPIC awarded two training contracts totaling $2,700,000 to Goodwill and BAVC without
documentation of contract costs or price analyses.

In its response, SFPIC stated that it would ensure that such analyses are conducted and
documented in future grant agreements.




                                              - 13 -
